TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Significant Delays Hindered Efforts to
                   Provide Continuous Monitoring of Security
                      Settings on Computer Workstations



                                        January 24, 2013

                              Reference Number: 2013-20-016




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                HIGHLIGHTS


SIGNIFICANT DELAYS HINDERED                         issues were identified and addressed. However,
EFFORTS TO PROVIDE CONTINUOUS                       the Treasury Enhanced Security Initiatives
MONITORING OF SECURITY SETTINGS                     project has experienced several delays, and the
ON COMPUTER WORKSTATIONS                            project’s oversight board did not take required
                                                    actions to manage the delays or the associated
                                                    costs. The IRS was scheduled to deploy the
Highlights                                          security tools in December 2010 but now plans
                                                    to complete the deployment in May 2013.
Final Report issued on January 24, 2013             WHAT TIGTA RECOMMENDED
Highlights of Reference Number: 2013-20-016         TIGTA recommended that the Chief Technology
to the Internal Revenue Service Chief               Officer direct the Cybersecurity and Privacy
Technology Officer.                                 Governance Board to: 1) review total actual life
                                                    cycle costs for projects at least quarterly and
IMPACT ON TAXPAYERS                                 review variances between actual costs and the
                                                    originally proposed estimated costs, 2) manage
Effective continuous monitoring of computer         costs by considering the postponement of
workstations allows security issues to be           projects with long-term delays, and 3) escalate
identified and mitigated promptly, reducing the     ongoing project delays to the higher level
likelihood of a security breach. When IRS data      Security Services and Privacy Executive
and its network are not secured, taxpayer           Steering Committee.
information becomes vulnerable to unauthorized
disclosure and theft. Furthermore, security         The IRS agreed with TIGTA’s recommendations
breaches can cause network disruptions and          and plans to review information technology
prevent the IRS from performing vital taxpayer      projects’ life cycle costs, consider postponing
services, such as processing tax returns, issuing   those projects with long-term delays, and
refunds, and answering taxpayer inquires. In        escalate delays to the higher level Security
addition, the IRS collects vast quantities of       Services and Privacy Executive Steering
personal and financial information that can be      Committee.
targeted for identity theft.
WHY TIGTA DID THE AUDIT
The overall objective of this review was to
determine whether the IRS is effectively and
efficiently implementing its continuous
monitoring tool to monitor security settings on
employee workstations and laptop computers.
This audit was included in TIGTA’s Fiscal
Year 2012 Annual Audit Plan and addresses the
major management challenge of Security for
Taxpayer Data and Employees.
WHAT TIGTA FOUND
The Treasury Enhanced Security Initiatives
project, which includes the continuous
monitoring tool for workstation security, will
address several computer security weaknesses.
The IRS appropriately acquired the project’s
multiple software components, and the project
team completed key documentation during the
development process, ensuring that critical
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            January 24, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                  (for) Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Significant Delays Hindered Efforts to Provide
                              Continuous Monitoring of Security Settings on Computer Workstations
                              (Audit # 201220008)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) continuous
 monitoring efforts on computer workstations. The overall objective of this review was to
 determine whether the IRS is effectively and efficiently implementing its continuous monitoring
 tool to monitor security settings on employee workstations and laptop computers. This audit was
 included in the Treasury Inspector General for Tax Administration’s Fiscal Year 2012 Annual
 Audit Plan and addresses the major management challenge of Security for Taxpayer Data and
 Employees. This audit was also part of our statutory requirement to annually review the
 adequacy and security of IRS technology.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                                           Significant Delays Hindered Efforts to
                                         Provide Continuous Monitoring of Security
                                            Settings on Computer Workstations




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Treasury Enhanced Security Initiatives Project Will
          Address Several Computer Security Weaknesses on
          Employee Workstations ................................................................................ Page 3
          The Treasury Enhanced Security Initiatives Project
          Completed Key Documentation and Properly Acquired
          the Software .................................................................................................. Page 4
          The Treasury Enhanced Security Initiatives Project
          Experienced Several Delays ......................................................................... Page 6
          The Cybersecurity and Privacy Governance Board Did
          Not Take Required Actions to Manage Project Delays ................................ Page 7
                    Recommendations 1 through 3:........................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measure ................................................................ Page 13
          Appendix V – Symantec Risk Automation Suite Diagram .......................... Page 14
          Appendix VI – Glossary of Terms ................................................................ Page 15
          Appendix VII – Management’s Response to the Draft Report ..................... Page 20
          Significant Delays Hindered Efforts to
        Provide Continuous Monitoring of Security
           Settings on Computer Workstations




              Abbreviations

FDCC    Federal Desktop Core Configuration
IRS     Internal Revenue Service
IT      Information Technology
NIST    National Institute of Standards and Technology
OMB     Office of Management and Budget
SCAP    Secure Content Automation Protocol
SRAS    Symantec Risk Automation Suite
TESI    Treasury Enhanced Security Initiatives
TIGTA   Treasury Inspector General for Tax Administration
                                 Significant Delays Hindered Efforts to
                               Provide Continuous Monitoring of Security
                                  Settings on Computer Workstations




                                       Background

Government computer systems are subject to a variety of threats. According to the Government
Accountability Office, cyber-based1 threats to Federal systems and critical infrastructure are
evolving and growing.2 These threats can be intentional or unintentional, targeted or
nontargeted, and come from a variety of sources, including criminals, terrorists, and other
adversarial groups, as well as hackers and disgruntled employees. The motivations for these
threats—both external and internal—include causing disruption, committing fraud, and
performing identity theft. Security protections cannot prevent all attacks, but they can reduce the
opportunities that attackers have to gain access to a computer or to damage the computer’s
software or information. At the Internal Revenue Service (IRS), security breaches can cause
network disruptions and prevent the IRS from performing vital taxpayer services, such as
processing tax returns, issuing refunds, and answering taxpayer inquires. In addition, the IRS
collects vast quantities of personal and financial information that can be targeted for identity
theft. Security settings on computer systems should be monitored and maintained continuously
so that security weaknesses can be identified and mitigated promptly, reducing the likelihood of
a security breach. When IRS data and its network are not secured, taxpayer information
becomes vulnerable to unauthorized disclosure and theft.
In March 2007, the Office of Management and Budget (OMB)
launched the Federal Desktop Core Configuration (FDCC)                 The IRS is required to
initiative,3 setting forth requirements for establishing standard      continuously monitor
secure configurations on Federal workstations running the               security settings on
Windows® Vista and Windows XP operating systems. The                  computer workstations
FDCC was later updated to include security configuration              to identify and address
                                                                       security settings that
settings for the Windows 7 operating system. Two main goals              have been altered.
of the FDCC are to improve information security and reduce
overall information technology operating costs by providing a
baseline level of security configuration settings. When these settings are maintained on
computer systems, less time and money is spent eradicating malware, restoring systems from
backups, and reinstalling operating systems and applications. A reduction in vulnerability
exposure is also achieved.



1
  See Appendix VI for a glossary of terms.
2
  Government Accountability Office, GAO-10-202, Agencies Need to Implement Federal Desktop Core
Configuration Requirements, 3 (2010).
3
  Office of Management and Budget, OMB Memorandum M-07-11, Implementation of Commonly Accepted Security
Configurations for Windows Operating Systems (2007).
                                                                                               Page 1
                                 Significant Delays Hindered Efforts to
                               Provide Continuous Monitoring of Security
                                  Settings on Computer Workstations



The OMB required agencies to implement the standard security configurations by February 2008
and to begin continuous monitoring of these settings in August 2008.4 The OMB required
agencies to monitor the security settings by using a Secure Content Automation Protocol
(SCAP)-validated tool with FDCC scanner capability. The tool must be validated by the
National Institute of Standards and Technology (NIST).
The SCAP approach provides an automated, standardized approach to maintaining the security
of enterprise systems, such as implementing security configuration baselines, verifying the
presence of patches, performing continuous monitoring of system security configuration settings,
examining systems for signs of compromise, and achieving situational awareness, i.e., being able
to determine the security posture of systems and the organization at any given time.
The IRS is currently addressing the OMB mandates with a tool developed by the Space and
Naval Warfare Systems Command called the SCAP Compliance Checker. However, this tool
has limited functionality, and the IRS is attempting to replace it with more robust technology.
These efforts are managed through the IRS’s Treasury Enhanced Security Initiatives (TESI)
project. The TESI project is led by officials in the Information Technology (IT) organization’s
User and Network Services function. Oversight is provided by the Cybersecurity and Privacy
Governance Board, which oversees nonmajor information technology projects and is responsible
for ensuring project objectives are met, risks are managed appropriately, and expenditures are
fiscally sound.5
This review was performed at the IRS IT organization offices in New Carrollton, Maryland, and
in the Treasury Inspector General for Tax Administration (TIGTA) office in Dallas, Texas,
during the period January through August 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




4
 Office of Management and Budget, OMB Memorandum M-08-22, Guidance on the Federal Desktop Core Configuration (2008).
5
 Within the IRS IT organization, the following functions have voting representatives on the Cybersecurity and
Privacy Governance Board: Applications Development, Cybersecurity, (Architecture and Implementation,
Operations, and Risk Management Divisions), User and Network Services, Enterprise Operations, and Enterprise
Services.
                                                                                                Page 2
                                Significant Delays Hindered Efforts to
                              Provide Continuous Monitoring of Security
                                 Settings on Computer Workstations




                                 Results of Review

The Treasury Enhanced Security Initiatives Project Will Address
Several Computer Security Weaknesses on Employee Workstations
The SCAP Compliance Checker tool currently being used to monitor security settings allows the
IRS to achieve a minimum level of compliance with the FDCC mandate. The tool scans for
FDCC settings and is SCAP-compliant, based on the initial version of the tool that was certified
by the NIST. However, this compliance checker tool lacks significant capabilities. Specifically,
the tool:
      Does not provide remediation capabilities.
      Does not generate reports that present specific FDCC setting deficiencies.
      Does not allow the IRS to identify which workstations have noncompliant configurations
       or which configurations have been improperly altered.
Knowing which security settings have been altered on specific computers is crucial because
some settings are more significant than others and require immediate attention. For example,
one FDCC setting restricts the undocking of a laptop computer from its docking station. Laptop
computers are designed to be undocked for travel and teleworking purposes. For this reason, the
undocking security setting is not as significant as others. The IRS would not prioritize fixing this
low-risk setting if it was altered on a computer workstation. By contrast, another FDCC setting
that blocks users from downloading malicious programs or installing devices onto their
workstations is significant and the IRS would prioritize the investigation of changes to this
setting. The IRS needs an automated monitoring tool with the capability to identify and report
both the specific noncompliant FDCC settings and the workstations that contain the
noncompliant settings.
The objective of the TESI project is to enable the IRS to fully comply with the OMB mandate
and implement other key security controls for workstations. The TESI project will be deployed
in two phases and includes six separate software components. The first phase of the project
includes three components:
      The Symantec Risk Automation Suite (SRAS) will use dissolving agents to scan security
       configurations on computer workstations and identify noncompliant settings on specific
       workstations. The SRAS tool, once deployed, will perform asset discovery, auditing, and
       reporting for all IRS workstations. The SRAS will analyze workstations for policy
       compliance as determined by the FDCC, the NIST, and internal IRS policies. This
       component will also allow the IRS to prioritize the highest risk workstations for timely
                                                                                             Page 3
                               Significant Delays Hindered Efforts to
                             Provide Continuous Monitoring of Security
                                Settings on Computer Workstations



       remediation. The SRAS will eventually replace the SCAP Compliance Checker tool
       currently in place at the IRS. See a diagram of the SRAS component in Appendix V.
      The Application Control Solution will allow the IRS to improve system integrity,
       security, and manageability by classifying known applications as either allowed or
       disallowed and thereby permit or prevent their execution.
      The Local Security Solution will provide centralized management of local administrative
       users and groups and allow the IRS to quickly and easily provision these accounts on the
       network. This component will resolve a current administrator password weakness that
       the IRS has identified and documented.
These components will allow the IRS to better monitor computer workstations on a more
continuous basis, identify high-risk systems for immediate remediation, and provide some
assurance that employee workstations are secure.

The Treasury Enhanced Security Initiatives Project Completed Key
Documentation and Properly Acquired the Software

Key enterprise life cycle artifacts were properly completed
The TESI project team completed the key documentation required by the IRS’s Enterprise Life
Cycle development process. IRS IT organization project teams are required to follow the
Enterprise Life Cycle development methodology. This approach is used to manage and
implement business change through information systems initiatives and provides the artifacts and
processes needed to accomplish business change in a consistent and repeatable manner. An
important objective of the Enterprise Life Cycle is to enhance chances for success by reducing
risk and ensuring compliance with internal and external standards and mandates.
An example of a key artifact that the TESI project properly completed is the System Deployment
Plan. This plan defines the detailed set of activities required for the deployment of the TESI
project components. We verified that the major sections of this plan were properly completed.
The major sections are the site dependency matrix that provides the deployment activities and the
corresponding responsible organizations, the roles and responsibilities section that identifies the
roles and individuals responsible for deployment and testing activities at each site, and the site
deployment schedule that provides a comprehensive list of the deployment activities with start
and completion dates and durations.
Furthermore, the TESI project’s Enterprise Life Cycle test plans are comprehensive and include
the required details.
      The System Test Plan includes testing system controls surrounding the TESI project and
       includes policy checker and vulnerability scans.


                                                                                            Page 4
                               Significant Delays Hindered Efforts to
                             Provide Continuous Monitoring of Security
                                Settings on Computer Workstations



      The End-of-Test Completion report indicates the project plans to document and follow
       through on test results.
      The Deployment Site Readiness Test plan indicates the project plans to conduct ongoing
       testing as the TESI project components are rolled-out to the various deployment sites.
The IRS was starting to test the TESI project components at the end of our fieldwork. However,
our review of the TESI project test plans and early test results indicate the planned testing is
more extensive than what is currently required by the IRS Cybersecurity function. Furthermore,
the testing documentation is thorough and complete.

Stakeholders were involved in the design and development of the TESI project
The TESI Project Management team involved its key stakeholders in the design and
development processes. The TESI project team held weekly meetings that included key
stakeholders from the User and Network Services function, the Enterprise Services function, and
the Enterprise System Management team in the Enterprise Operations function. These
stakeholders provided comments on the Enterprise Life Cycle artifacts and documentation and
informally communicated with the TESI project team frequently. This collaboration is important
when deploying enterprise-wide software tools that require resource alignment and coordination
between functions.

The TESI project software components were properly acquired
The IRS properly acquired the SRAS component of the TESI project from the General Services
Administration’s SmartBUY program, which pre-negotiates prices for the Federal Government
in order to achieve maximum cost savings and the best quality for commodity software. The IRS
also properly acquired the Local Security Solution and Application Control Solution components
through the National Aeronautics and Space Administration Solutions for Enterprise-Wide
Procurement contract. This contract also provides pre-competed discounted prices on
information technology products for use by all Federal agencies. In addition, all three Phase 1
TESI project components were approved to be added to the IRS’s Enterprise Standards Profile,
which is the official list of information technology standards and approved software products at
the IRS.

The SRAS component is SCAP-validated
We also determined that the SRAS component of the TESI project was validated by the NIST as
a SCAP-compliant tool in accordance with the OMB’s August 2008 mandate. This means the
SRAS uses the standardized format and nomenclature by which security software products
communicate software flaws and security configuration information. The SRAS utilizes the
SCAP to organize, express, and measure security-related information in standardized ways,
including unique identifiers for vulnerabilities. Furthermore, the SRAS was deployed

                                                                                          Page 5
                               Significant Delays Hindered Efforts to
                             Provide Continuous Monitoring of Security
                                Settings on Computer Workstations



successfully at the U.S. Department of Health and Human Services, another large Federal agency
with a geographically dispersed network.

The Treasury Enhanced Security Initiatives Project Experienced
Several Delays
While the IRS completed and documented the Enterprise Life Cycle processes to develop the
TESI project components, the project experienced several delays that affected its timely
deployment.
Customer Account Data Engine, Version 2 – The Enterprise Operations function was
responsible for ensuring the Customer Account Data Engine 2 system would operate as intended
during the 2012 Filing Season. The mission of the Customer Account Data Engine 2 Program is
to provide state-of-the-art individual taxpayer account processing and technologies to improve
service to taxpayers and enhance tax administration. Once complete, the new modernized
environment should allow the IRS to more effectively and efficiently update taxpayer accounts,
support account settlement and maintenance, and process refunds on a daily basis. This
high-profile modernization project was the top information technology priority for the IRS and
consumed significant resources in the Enterprise Operations function in Calendar Years 2011
and 2012. Several information technology projects at the IRS were affected, including the TESI
project, because the projects depend on the Enterprise Operations function to establish
foundational infrastructure, such as the Symantec Management Platform discussed in detail
below.
Symantec Infrastructure Upgrade – As the IRS prepared to upgrade its infrastructure from
Altiris 6.9 to Symantec Management Platform version 7.0 in April 2011, officials from the
Symantec Corporation notified the IRS that version 7.0 had several problems that required
resolution before the IRS could deploy the upgrade on its network. The IRS had to delay this
infrastructure upgrade until the Symantec Corporation released its Symantec Management
Platform version 7.1, which the IRS approved for deployment in May 2011. However, as of
August 2012, 16 months after the planned upgrade, the IRS has not successfully deployed and
stabilized version 7.1.
At the end of Calendar Year 2011, Enterprise Operations function officials began working with
contractors from the Symantec Corporation on a daily basis to resolve the Symantec
Management Platform version 7.1 performance issues. Symantec and Enterprise Operations
function officials determined on January 5, 2012, that the Symantec Management Platform was
not operating as intended because the IRS’s virtualized server environment could not provide the
required input/output speeds that are necessary for the Symantec Management Platform to
function properly. Symantec Corporation reiterated the required resources for the platform and
recommended physical structured query language servers be used instead of virtualized servers.


                                                                                         Page 6
                               Significant Delays Hindered Efforts to
                             Provide Continuous Monitoring of Security
                                Settings on Computer Workstations



The Enterprise Operations function agreed with the recommendation but has not installed the
physical servers as of August 2012.
Filing Season Moratoriums – The IRS establishes a filing season moratorium each year to
stabilize its information technology production environment during peak tax return processing
times. During the moratorium, no changes to the information technology environment are
allowed to be implemented without executive approval. The TESI project experienced delays
due to two separate filing season moratoriums in effect from November 30, 2010, through
May 23, 2011, and from November 1, 2011, through May 21, 2012.
The cumulative effect of these delays resulted in the IRS acquiring software licenses for each
component of the TESI project that have not yet been implemented. As of August 2012, the IRS
has paid $687,180 for license renewal and maintenance fees that expire in September 2012 for
products that are not yet deployed.

The Cybersecurity and Privacy Governance Board Did Not Take
Required Actions to Manage Project Delays
The Cybersecurity and Privacy Governance Board held its first meeting in November 2009 with
a charter to resolve project issues; manage cost, schedule, and scope variances; and escalate any
unresolved issues to the higher level Security Services and Privacy Executive Steering
Committee. However, this Board did not take these actions to address the delays that the TESI
project encountered.
In March 2011, the TESI project first reported to the Cybersecurity and Privacy Governance
Board that significant delays were hindering the project from deploying on time, and the project
needed a new baseline. Specifically, the delay in upgrading the Symantec Management
Platform, which we explained earlier in this report, was reported. The same delay was then
reported to the Board on a regular basis for the next 16 months, through July 2012, but the Board
did not take actions to manage the costs associated with the delay or approve a new baseline for
the project until the July 2012 meeting. Considering the TESI project was originally scheduled
to deploy the SRAS in December 2010, the project continued to operate for 19 months without
an approved baseline, from December 2010 to July 2012. Additionally, at no point did the Board
request the TESI project to report its total life cycle costs. This action would have allowed the
Board to analyze cost variances against the original planned cost at the start of the project and
the actual and revised estimated costs. Finally, the Board did not escalate the significant delays
to the higher level Executive Steering Committee.
The Cybersecurity and Privacy Governance Board Chair informed us that the Board did not
consider postponing the project to conserve funds for other information technology projects. The
Board mistakenly assumed that the Enterprise Operations function would provide the support
that the TESI project needed in the following month. However, at the end of our fieldwork, in
August 2012, the Enterprise Operations function still had not installed the physical servers or

                                                                                           Page 7
                                      Significant Delays Hindered Efforts to
                                    Provide Continuous Monitoring of Security
                                       Settings on Computer Workstations



stabilized the Symantec Management Platform infrastructure. Furthermore, the IRS paid
contractors $1,151,939 for TESI project support from December 2010, the original SRAS
deployment date, through April 2012.6 The TESI project currently plans to deploy its Phase 1
components in May 2013.

Recommendations
The Chief Technology Officer should direct the Cybersecurity and Privacy Governance Board
to:
Recommendation 1: Review total actual life cycle costs for projects at least quarterly and
review variances between actual costs and the originally proposed estimated costs.
           Management’s Response: The IRS agreed with this recommendation. The
           Cybersecurity and Privacy Governance Board will review total actual life cycle costs for
           projects at least quarterly and review variances between actual costs and estimated costs.
Recommendation 2: Manage costs by considering the postponement of projects with
long-term delays.
           Management’s Response: The IRS agreed with this recommendation. The
           Cybersecurity and Privacy Governance Board will consider postponing projects with
           long-term delays and will present its recommendation for postponement to the
           higher level governance board, the Security Services and Privacy Executive Steering
           Committee, for concurrence.
Recommendation 3: Escalate ongoing project delays to the Security Services and Privacy
Executive Steering Committee, as required by its charter.
           Management’s Response: The IRS agreed with this recommendation. The
           Cybersecurity and Privacy Governance Board will escalate ongoing delays that cannot be
           resolved to the higher level governance board, the Security Services and Privacy
           Executive Steering Committee, for resolution.




6
    See Appendix IV for more details.
                                                                                               Page 8
                                       Significant Delays Hindered Efforts to
                                     Provide Continuous Monitoring of Security
                                        Settings on Computer Workstations



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is effectively and
efficiently implementing its continuous monitoring tool to monitor security settings on employee
workstations and laptop computers. To accomplish our objective, we:
I.         Evaluated the continuous monitoring capability that is currently in place for workstations
           and determined whether the SRAS1 will provide the OMB-mandated functionality once
           implemented.
           A. Reviewed the performance and functionality of the Space and Naval Warfare Systems
              Command’s SCAP Compliance Checker tool currently in place at the IRS to
              identify weaknesses in the tool, and confirmed that the NIST approved it to be
              SCAP-compliant.
           B. Determined whether the SRAS system will provide the OMB-mandated functionality
              for scanning and monitoring security configurations, once deployed, and determined
              whether the tool is NIST-validated.
II.        Determined whether the IRS properly and efficiently procured a SCAP-validated
           workstation configuration monitoring tool.
           A. Determined whether the SRAS component and any related contract support services
              met the requirements for the General Services Administration’s SmartBUY program
              and other Federal purchasing programs by obtaining and analyzing acquisition
              documentation and program requirements.
           B. Interviewed the appropriate contracting officer and TESI project management to
              obtain explanations of the acquisition processes that were followed.
           C. Determined whether premature acquisition of tools, licenses, infrastructure, or
              services resulted in wasted funds.
III.       Determined whether the IRS has effectively managed the TESI project to implement the
           SRAS within its budget and schedule.
           A. Determined whether the TESI project was properly classified as a nonmajor
              acquisition per relevant regulations.



1
    See Appendix VI for a glossary of terms.
                                                                                                Page 9
                              Significant Delays Hindered Efforts to
                            Provide Continuous Monitoring of Security
                               Settings on Computer Workstations



       B. Determined whether the TESI project followed the correct Enterprise Life Cycle path;
          properly and timely completed key Enterprise Life Cycle deliverables, artifacts, and
          processes; ensured that major stakeholders were actively involved throughout the
          project development phases, especially during critical review processes such as
          Customer Technical Reviews, Life Cycle Stage reviews, and Milestone Readiness
          reviews; and timely and properly conducted Milestone Readiness Reviews and
          Milestone Exit Reviews, which are mandatory for all projects.
       C. Identified the deadlines for implementing the SRAS and evaluated the TESI project’s
          success in meeting the deadlines. We also determined whether the IRS rebaselined
          the TESI project in accordance with OMB guidance and determined the number of
          times the project was officially rebaselined.
       D. Determined the cause and effect of the delays the IRS experienced in implementing
          the SRAS. We interviewed TESI project management, Enterprise Operations
          function officials, and the Chair of the Cybersecurity and Privacy Governance Board
          to quantify delays and their causes. We reviewed Board meeting minutes to
          determine whether the delays, along with the cause and effect, were timely reported
          to the Board, and evaluated the Board’s actions to address the delays.
       E. Determined the overall TESI project costs to date and estimated costs remaining for
          implementation.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the OMB, the NIST, and related IRS
guidelines for continuous monitoring of security configurations on computer workstations and
the IRS’s efforts to implement these controls in order to protect the IRS network and data. We
evaluated these controls by conducting interviews and meetings with TESI project management
and security staff at the IRS responsible for addressing noncompliant workstations. We also
reviewed software and contractor support acquisitions for the TESI project, as well as related
IRS processes and regulatory requirements information.




                                                                                       Page 10
                              Significant Delays Hindered Efforts to
                            Provide Continuous Monitoring of Security
                               Settings on Computer Workstations



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
W. Allen Gray, Audit Manager
Jena R. Whitley, Lead Auditor
Charles O. Ekunwe, Senior Auditor
Mary L. Jankowski, Senior Auditor
Linda L. Nethery, Information Technology Specialist




                                                                                     Page 11
                            Significant Delays Hindered Efforts to
                          Provide Continuous Monitoring of Security
                             Settings on Computer Workstations



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 12
                                Significant Delays Hindered Efforts to
                              Provide Continuous Monitoring of Security
                                 Settings on Computer Workstations



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Inefficient Use of Resources – Potential; $1,151,939 in contractor support services (see
    page 7).

Methodology Used to Measure the Reported Benefit:
The IRS spent $1,151,939 on contractor support services for the TESI project from its original
December 2010 planned deployment of the SRAS component through April 2012. The TIGTA’s
recommendation to the Cybersecurity and Privacy Governance Board to manage project costs
and consider postponing projects with long-term delays will enable the IRS to improve its
process to more efficiently manage information technology project resources.




                                                                                          Page 13
                                   Significant Delays Hindered Efforts to
                                 Provide Continuous Monitoring of Security
                                    Settings on Computer Workstations



                                                                                            Appendix V

            Symantec Risk Automation Suite Diagram




Source: The TIGTA and design artifacts developed by the IRS’s TESI project team. SQL = structured query
language.

                                                                                                     Page 14
                       Significant Delays Hindered Efforts to
                     Provide Continuous Monitoring of Security
                        Settings on Computer Workstations



                                                                       Appendix VI

                      Glossary of Terms

              Term                               Definition
Acquisition             The process of obtaining products or services through
                        contractual agreements with outside vendors or contractors.
Altiris                 Company acquired by Symantec Corporation in 2007.
Application             An information technology component of a system that
                        utilizes information technology resources to store, process,
                        retrieve, or transmit data or information using information
                        technology hardware and software.
Artifact                The tangible result (output) of an activity or task performed by
                        a project during the Enterprise Life Cycle.
Baseline                A benchmark that includes project costs, schedule, and scope
                        against which project performance is measured.
Contractor              An organization external to the IRS that supplies goods and
                        services according to a formal contract. A contractor is a type
                        of provider.
Cyber                   Cyber is often used for “electronic” or “computer-related.”
Dissolving Agent        A computer program that is used for collecting data locally at
                        endpoints without requiring communication back to the
                        scanner; once data are collected, the agent sends the data back
                        to the scanner and deletes itself from the endpoint.
Enterprise              An organization with a defined mission/goal and a defined
                        boundary, using information systems to execute that mission,
                        and with responsibility for managing its own risks and
                        performance. An enterprise may consist of all or some of the
                        following business aspects: acquisition, program
                        management, financial management, human resources,
                        security, information systems, and mission management.




                                                                                Page 15
                            Significant Delays Hindered Efforts to
                          Provide Continuous Monitoring of Security
                             Settings on Computer Workstations




             Term                                      Definition
Enterprise Life Cycle        The Enterprise Life Cycle is the approach used by the IRS to
                             manage and implement business change through information
                             systems initiatives. The Enterprise Life Cycle provides the
                             direction, processes, tools, and assets necessary to accomplish
                             business change in a consistent and repeatable manner.
Federal Desktop Core         Designed to provide a single standard, enterprise-wide
Configuration                managed environment for desktops and laptops by using a
                             common configuration to improve security and reduce costs.
Governance                   The exercise of external control over a project or program by
                             personnel or organizations that are not part of or directly
                             associated with the team performing the work on a day-to-day
                             basis.
Information Security         The protection of information and information systems from
                             unauthorized access, use, disclosure, disruption, modification,
                             or destruction in order to provide confidentiality, integrity, and
                             availability.
Information Technology       Any equipment or interconnected system or subsystem of
                             equipment that is used in the automatic acquisition, storage,
                             manipulation, management, movement, control, display,
                             switching, interchange, transmission, or reception of data or
                             information by the executive agency. The term information
                             technology includes computers, ancillary equipment, software,
                             firmware and similar procedures, services (including support
                             services), and related resources.
Malware (also Malicious      Software or firmware intended to perform an unauthorized
Code)                        process that will have an adverse impact on the
                             confidentiality, integrity, or availability of an information
                             system. A virus, worm, Trojan horse, or other code-based
                             entity that infects a host. Spyware and some forms of adware
                             are also examples of malicious code.
Modernization                Modernization is the process of updating, improving, and
                             bringing in line with modern standards. Modernization is an
                             IRS program that includes Organization Modernization and
                             Business System Modernization (processes and technology).


                                                                                       Page 16
                               Significant Delays Hindered Efforts to
                             Provide Continuous Monitoring of Security
                                Settings on Computer Workstations




            Term                                            Definition
National Institute of Standards   The NIST, under the Department of Commerce, is responsible
and Technology                    for developing standards and guidelines for providing
                                  adequate information security for all Federal Government
                                  agency operations and assets.
Network                           Information system(s) implemented with a collection of
                                  interconnected components. Such components may include
                                  routers, hubs, cabling, telecommunications controllers, key
                                  distribution centers, and technical control devices.
Nonmajor Project                  A project that meets OMB criteria for nonmajor projects.
Office of Management and          Implementation and enforcement arm of Presidential policy
Budget                            Government-wide that carries out its mission through budget
                                  development and execution; oversight of agency performance,
                                  Federal procurement, and financial management; and the
                                  review of, among other things, all significant Federal
                                  regulations by executive agencies.
Project                           A group of tasks to accomplish a specific objective, with a
                                  beginning and ending date, that is planned, monitored, and
                                  measured; follows a life cycle process; and results in
                                  deliverables or end products.
Release                           A collection (one or more) of changes made since the last
                                  deployment of a system. A release can also refer to an initial
                                  deployment of software or hardware and may or may not be
                                  used in the context of one or more projects.
Remediation                       The act of correcting a vulnerability or eliminating a threat
                                  through activities such as installing a patch, adjusting
                                  configuration settings, or uninstalling a software application.
Risk                              The level of impact on agency operations (including mission,
                                  functions, image, or reputation), agency assets, or individuals
                                  resulting from the operation of an information system given
                                  the potential impact of a threat and the likelihood of that threat
                                  occurring.
Security Content Automation       A method for using specific standards to enable automated
Protocol                          vulnerability management, measurement, and policy
                                  compliance evaluation.

                                                                                            Page 17
                              Significant Delays Hindered Efforts to
                            Provide Continuous Monitoring of Security
                               Settings on Computer Workstations




          Term                                           Definition
Server                         A physical computer (a computer hardware system) dedicated
                               to running one or more services (as a host), to serve the needs
                               of the users of other computers on the network. Depending on
                               the computing service that it offers, it could be a database
                               server, file server, mail server, print server, web server,
                               gaming server, or some other kind of server.
Structured Query Language      A special-purpose programming language designed for
                               managing data in relational database management systems.
Symantec Management            Provides a set of services that information technology-related
Platform                       solutions can leverage. Because solutions share the same
                               platform, they can share platform services as well as data.
                               This close integration of solutions and the platform makes it
                               easier to use the different solutions because they work in a
                               common environment and are administered through a common
                               interface. Components include role-based security; client
                               communications and management; event-triggered and
                               scheduled task and policy execution; file deployment and
                               installation; reporting; and centralized management through a
                               single, common interface.
Symantec Risk Automation       Tool with capabilities that relate directly to the objectives of
Suite                          the NIST SCAP, a method for using specific standards to
                               enable automated and integrated vulnerability management
                               and measurement, and policy compliance evaluation.
                               Provides continuous and automated information technology
                               risk metrics.
System                         A discrete set of information resources organized for the
                               collection, processing, maintenance, use, sharing,
                               dissemination, or disposition of information. A system
                               normally includes hardware, software, information, data,
                               applications, communications, and people.




                                                                                         Page 18
                       Significant Delays Hindered Efforts to
                     Provide Continuous Monitoring of Security
                        Settings on Computer Workstations




           Term                                  Definition
Threat                  Any circumstance or event with the potential to adversely
                        affect organizational operations (including mission, functions,
                        image, or reputation), organizational assets, or individuals
                        through an information system via unauthorized access,
                        destruction, disclosure, modification of information, or denial
                        of service. Also, the potential for a threat source to
                        successfully exploit an information system’s vulnerability.
User                    Individual, or (system) process acting on behalf of an
                        individual, authorized to access an information system.
Virtualized Server      Running applications in separate, isolated partitions (separate
                        “virtual machines”) within a single server. Widely used in
                        enterprise and cloud computing data centers, each virtual
                        machine runs its own operating system and application and
                        can be moved or copied from one server to another for load
                        balancing or to expand processing capability.
Virus                   A piece of programming code usually disguised as something
                        else that causes some unexpected and, for the victim, usually
                        undesirable event and which is often designed so it is
                        automatically spread to other computers.
Vulnerability           Weakness in an information system, system security
                        procedures, internal controls, or implementation that could be
                        exploited or triggered by a threat source.
Vulnerability Scan      The process of proactively identifying vulnerabilities of an
                        information system in order to determine if and where a
                        system can be exploited or threatened. Employs software that
                        seeks out security flaws based on a database of known flaws,
                        tests systems for the occurrence of these flaws, and generates a
                        report of the findings that an individual or an enterprise can
                        use to tighten the network’s security.




                                                                                  Page 19
            Significant Delays Hindered Efforts to
          Provide Continuous Monitoring of Security
             Settings on Computer Workstations



                                                 Appendix VII

Management’s Response to the Draft Report




                                                       Page 20
  Significant Delays Hindered Efforts to
Provide Continuous Monitoring of Security
   Settings on Computer Workstations




                                            Page 21
  Significant Delays Hindered Efforts to
Provide Continuous Monitoring of Security
   Settings on Computer Workstations




                                            Page 22
